 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  STATEWIDE CHILD SUPPORT
AUTOMATED TELEPHONE SYSTEMS




                    JANET REHNQUIST
                      Inspector General

                     September 2002
                     OEI-06-00-00460
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
                             EXECUTIVE SUMMARY

OBJECTIVE

          To evaluate the quality of parent access to child support enforcement information and customer
          service through State-level automated telephone systems and identify opportunities for
          improving these systems.

BACKGROUND

          Recent legislation and child support enforcement agency initiatives have increased the overall
          awareness of the need to provide quality customer service to child support enforcement clients.
          Automated telephone systems play an integral role in how State child support enforcement
          agencies communicate with clients and provide customer service. We reviewed all State-
          operated automated child support enforcement telephone systems, using a standardized
          protocol which focused on system content, accessibility and usability. The basis for much of
          our analysis is our development of a list of model system traits. We evaluate the potential
          usefulness of systems to callers, and outline a number of model traits exhibited by the best
          systems. We describe State use of the systems, identify model system traits, and highlight
          recurring limitations that inhibit system usefulness.

FINDINGS

Forty-nine child support enforcement agencies use automated systems, and 14
operate model systems that provide callers superior access to useful information
      Forty-nine States, including the District of Columbia, operate at least one State-wide
      automated telephone system. Thirteen of these States operate more than one State-wide
      system, for a total of 69 systems nationwide. Fourteen State systems exhibit model traits which
      set them apart from other systems, including comprehensive system content, ready accessibility,
      and high usability. Twenty-six other States have systems which meet most, but not all, of our
      model system traits and were rated highly by reviewers for overall usefulness. The nine
      remaining States operate automated systems that are missing more than two model system traits
      and were also rated poorly for overall usefulness.

Callers receive case-specific payment information through 61 of the 69 systems;
payment instructions and program descriptions are also common

          Automated systems typically consist of a series of menus from which callers can choose to
          access information and services, the most common of which is case-specific payment

Child Support Enforcement
                                               __________
Automated Telephone System                          i                                OEI-06-00-00460
          information. Recorded descriptions of child support services offered by automated systems are
          typically brief, but give useful program overviews on a broad array of topics such as paternity
          establishment and wage withholding. The more highly rated systems allow for quick automated
          access to the most important topic areas, bypassing topics less likely to be of interest to the
          caller.

Caller access to information is generally good, with 57 automated systems
available 24/7, 49 offering toll-free service, and 57 answering calls on first attempt

          Initial system access does not appear to be a substantial barrier to use. Among the 12 systems
          that required more than one attempt to reach, six were accessed on the second or third attempt
          and six required upwards of 10 attempts before our calls were answered. The automated
          portion of 57 systems is available to callers all day, every day, and 49 systems provide service
          toll-free nationwide. Of those systems without toll-free service, many are available free if
          calling within the State. To further broaden access to service, 19 systems provide recorded
          messages in both English and Spanish.

Navigational tools improve caller ease of use, and 48 systems use optional live
representatives to supplement automated service

          Systems typically include navigational tools to ease use. For example, 55 systems allow callers
          to repeat menus, and 61 allow callers to make a menu selection without listening to the entire
          list of options. However, these features are not always clearly identified for inexperienced
          callers. Fourteen of the 55 systems offering repeat functions do not inform callers of the option,
          and only 49 systems offer general instructions for using their menus. Forty-eight systems also
          offer callers the option to speak with a live representative in addition to automated information,
          typically to provide details specific to a client’s case.

Problems commonly inhibiting usefulness for callers include systems that are
overly complex, are not user-friendly, and include outdated information

          Further analysis of systems that were not rated highly or not identified as model systems
          revealed a number of limits to usefulness. Systems limitations include overly complex menus
          that bury key topics, cumbersome navigation, and use of a negative tone in communicating with
          clients. Some systems also appeared less suited for first-time users, lacking clear information
          on topics of interest to the new client, such as the application process. Other limitations include
          an over reliance on live representatives to provide information that could be automated and
          inclusion of inaccurate or outdated information.

CONCLUSION AND SUGGESTIONS FOR IMPROVEMENT

          Conclusion. Our analysis of model child support enforcement automated telephone systems
          identifies key content and features employed by the most useful systems. These

Child Support Enforcement
                                                __________
Automated Telephone System                           ii                                 OEI-06-00-00460
          traits, including comprehensive content, ready accessibility, and usability features, combine to
          create systems which are helpful to both new and experienced callers. In terms of system
          content and information, we found that it is critical for systems to provide clear and quick
          access to the most important topic areas, such as case-specific payment information. Among
          features of accessibility and usability, we found that automating key topic areas and providing
          basic navigational tools is highly important to improving caller experiences. In reviewing
          systems not identified as models, we found a number of limitations to usefulness and make
          suggestions for improving child support enforcement automated telephone systems and enhance
          service to callers.

          Suggestions for Improvement. To improve the content, accessibility, and usability of State
          child support enforcement automated telephone systems, we suggest that the Administration for
          Children and Families (ACF) help States enhance their systems. Particular emphasis could be
          placed on improving operations in the nine States identified as using poor automated systems.
          The model system traits listed in the primer on page 5 could serve as a model for basic system
          features, and could be promoted to States by listing these traits on the ACF website. We
          suggest ACF could provide technical assistance to help States:
          <	 Focus on key topic areas. Assist States in simplifying their automated telephone
             systems, both in content and function, to help them emulate the model States. The most
             useful systems provide substantive information but allow callers to access key, critical
             issues, such as payment information and case initiation, quickly and easily, without requiring
             callers to listen to unnecessary menus or information.
          <	 Make systems more user-friendly. Assist States in building systems that center on
             services to parents, offering 24-hour access and features that ease use. Technical
             assistance to States could target creating systems that include useful mechanical features,
             using the traits listed in the primer on page 5 as a model for basic system features. These
             model traits could be promoted through the ACF website.
          <	 Target first-time callers. Foster State efforts to include messages, features, and content
             specifically targeted to first-time callers unfamiliar with procedures. These callers might
             benefit from the provision of a separate menu built for new or prospective clients.
          <	 Automate functions when possible. Encourage States to automate key information,
             such as payment details, rather than relying primarily on live representatives. Systems could
             attempt to answer basic caller questions through recorded messages and automated
             interaction, reserving live representatives for unique inquiries.
          <	 Update information frequently. Encourage States to keep information available on
             automated systems accurate and current. Most critical is the accuracy of further contact
             information, such as county office addresses and telephone numbers.




Child Support Enforcement
                                                __________
Automated Telephone System                          iii                               OEI-06-00-00460
AGENCY COMMENTS

ACF concurs with the findings and suggestions for improvement included in our report. Additionally,
ACF plans to publicize the traits of model automated telephone systems on their agency website. ACF
also indicates that it will target the nine States rated poorly in our report for further review and technical
assistance. In commenting on our report, ACF outlines details of web-based training it is currently
offering to State child support enforcement agencies. These efforts appear to address many of the
limitations to effective customer service that we identify for automated telephone systems. As our
report indicates, similar technical assistance could be of value in improving automated telephone
systems.




Child Support Enforcement
                                                __________
Automated Telephone System                          iv                                  OEI-06-00-00460
                          TABLE                           OF               CONTENTS


                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PRIMER ON ITEMS REVIEWED AND MODEL SYSTEM TRAITS . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Overview of State systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          System content . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          System accessibility . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          System usability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Limitations to system usefulness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


SUGGESTIONS FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Child Support Enforcement
Automated Telephone System                                                                                        OEI-06-00-00460
                                INTRODUCTION

OBJECTIVE

          To evaluate the quality of parent access to child support enforcement information and customer
          service through State-level automated telephone systems and identify opportunities for
          improving these systems.

BACKGROUND

          Recent legislation and initiatives increased the overall awareness of the need to provide quality
          customer service to child support enforcement clients. The Government Performance and
          Results Act (GPRA)1 of 1993 focuses on improving Federal program effectiveness and public
          accountability by promoting results, service quality, and public satisfaction. Under a GPRA
          pilot project, the Office of Child Support Enforcement (OCSE) lists improving customer service
          delivery and quality among its chief goals.2

          Automated telephone systems play an integral role in how State child support enforcement
          agencies communicate with clients and provide customer service. They can efficiently and
          economically provide useful information and client services from virtually any location, at any
          time. A 1995 report by the Federal Performance Review estimates that government agencies
          spend three times more money to respond to inquiries by letter than by telephone.3 Automated
          recordings can relay general information about child support enforcement services and give
          clients access to case-specific information, such as dates and amounts of support payments.
          These systems can also often link clients to child support enforcement staff, to handle further
          inquiries and case management tasks.

          The most effective automated telephone systems are both accessible and user-friendly. A
          recent Federal Consortium Benchmark study identified several desirable traits among telephone
          systems that it reviewed.4 It suggests systems that offer 24-hour access, short wait times
          between selections, live representatives, accurate information, and clear recordings in plain
          language. It also indicates systems that should allow callers to navigate within menus for easy
          location of information. Additionally, systems should offer options in the languages most often
          used by clients.

          State policy stemming from welfare reform has also recently altered the way the child support
          community thinks about the customer base for which automated systems are designed. While
          OCSE and its State partners traditionally view custodial parents as their primary customers,
          many now also see noncustodial parents as clients. Consequently, States may augment systems
          to provide information and services to both parent groups.


Child Support Enforcement
                                               __________
Automated Telephone System                          1                                 OEI-06-00-00460
METHODOLOGY

Study Focus

          Automated telephone systems typically consist of a series of menus, of varying complexity, from

          which callers access information and services. In reviewing system content, we focused on the

          topics addressed, and the depth and accuracy of the information provided. Studying the

          mechanical features, we focused on how easy the system is for callers to use. Mechanical

          issues include the ability to reach the system, the clarity of recorded messages, the extent of

          instructions provided, and the use of functions designed to provide greater maneuverability

          within each system.


          This report examines six aspects of State-level automated telephone systems:


          <    use of systems by States and identification of model traits

          <    comprehensiveness of system content

          <    system accessibility to callers

          <    system usability by callers

          <    limitations to system usefulness


State-level Automated Systems

          To compile our list of telephone systems, we requested child support enforcement agencies in
          all States and the District of Columbia to provide us with a list of all State-level and local-level
          automated telephone numbers that were available for clients in August 2001. Because some
          States had more than one system, or multiple lines to a single system, States submitted 101
          State-level telephone numbers (Table 1). We called all of the telephone numbers to verify that
          they were automated systems, rather than live service, and currently in operation. We
          eliminated non-working numbers and             Table 1: State-level automated telephone systems
          those which duplicated other
                                                         Classification                               Systems
          systems. Our final list consisted of
          69 State-level numbers from 49                 Automated systems                                69

          States, and we base our report                 Live representatives                             14

          statistics on this set. The remaining          In-State-only access                              9

          two States did not have automated              Duplicates                                        4

          systems. We further reviewed a                 Other                                             3

          sample of local-level systems to               Disconnected                                      2
          provide additional insight regarding           Total                                          101
          the possible experiences of child
                                                         Source: Verification of State-reported telephone numbers,
          support enforcement clients seeking                       Office of Inspector General
          information and services in States
          which operate local systems.


Child Support Enforcement
                                                   __________
Automated Telephone System                              2                                   OEI-06-00-00460
          Because we found no significant differences between these local-level systems and the State-
          level systems reviewed, we do not include data regarding local-level systems in our report.

Data Collection

          Two OIG analysts separately reviewed each State-level system between August and October
          2001. Using a standardized protocol, reviewers systematically recorded and assessed multiple
          factors regarding content, accessibility, and usability. We developed the protocol through a
          review of literature describing customer service efforts in child support enforcement and other
          fields, and pre-inspection data collection and analysis using a sample of State systems. We
          attempted contact of each State-level system during three time slots, to verify access at different
          times of the day and different days of the week. The primer on page 5 of this report outlines
          the items we reviewed by category.

          Once contact with a system was successful, reviewers accessed all menus, noting mechanical
          features and creating a ‘tree’ of all available selections. Reviewers also rated the
          comprehensiveness of the information given. A system was considered to have provided
          ‘substantive’ information about a topic if the level of detail and practicality of the information
          contained in the recorded messages appeared sufficient to inform callers without referral to a
          live representative or other source. If such substantive information covered an array of topic
          areas, we considered the system as a whole to provide ‘comprehensive’ information. We also
          determined whether any referral numbers given by systems were accessible and what
          information they provided.

          When selections culminated in transfer to a live representative, we recorded at what point in the
          menus this option was offered, whether staff were available, and how quickly they answered.
          Because case-specific information often requires a client access code, our access was limited,
          but we reviewed as much of this service component as possible. Although most criteria could
          be reviewed objectively, ratings of a few factors, such as voice clarity and pace, were based on
          the judgment of the two reviewers. When the judgment of reviewers differed, we combined
          ratings for average measures of items.

Data Analysis

          We conducted our data analysis at two levels: State-centered (using the 49 States with at least
          one operating system); and system-centered (using the total of 69 State-level systems). For the
          State-centered analysis, we identified the most expansive system with the most service options
          in each State. This State-centered analysis is presented first in the report, to characterize the
          level of national coverage of automated telephone systems, as well as to identify the number of
          States with exemplary systems. The remainder of the report uses all 69 State-level systems to
          focus on describing overall system characteristics. This system-centered analysis enumerates
          the types of information and services offered, and rates their accessibility and usability on a
          number of factors. The combination of State-centered and system-centered analysis provides

Child Support Enforcement
                                                __________
Automated Telephone System                           3                                 OEI-06-00-00460
          both a complete national view of State use of systems and an operational view of how they
          work.

          The basis of much of our analysis is our development of a list of model system traits. After
          dissecting all system traits captured by the standardized data collection protocol, we developed
          a guideline, which describes traits of the best systems. In addition to identifying these model
          characteristics, our subsequent analysis uses the model as a guideline for comparing and
          describing various specific system traits regarding content, accessibility, and usability. Last,
          reviewers gave all systems an overall rating, to provide a collective view of the quality of each
          system, serving as a confirmation of our systematic evaluation of specific items within systems.
          We used positive ratings to confirm our selection of ‘model’ systems and negative ratings to
          help identify limitations to system usefulness. We describe these recurring limitations, and
          highlight features and modifications that could improve system quality.

Data Limitations

          We note a few limitations to our data collection process. The first is that our calls to State
          automated systems occurred during a three-month period in 2001, and we recognize that States
          may have subsequently modified their systems. Also, the use of OIG analysts to complete the
          standardized protocols may introduce a bias toward callers who are more adept at using
          automated systems. On this point, analysts were instructed to view system traits from the
          perspective of a less-experienced caller to the extent possible. Callers to automated systems
          are assumed to typically be parents, but may include other interested parties, such as
          employers. Thus, we will use the term “callers” for those who used these automated systems.
          Last, our focus on State-level automated systems should not be taken to mean that clients might
          not also receive telephone service from local-level automated systems or strictly through live
          representatives.

          This study was conducted in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.




Child Support Enforcement
                                                __________
Automated Telephone System                           4                                OEI-06-00-00460
                        Primer On State Child Support Enforcement Automated
                        Telephone Systems: Items Reviewed and Model Traits


Our evaluation focused on the content, accessibility, and usability of all State-level automated systems.
We developed a standardized protocol to record and rate their characteristics. Consideration was given to
customer service literature in child support enforcement and related fields, and pre-inspection data
collection using a sample of State systems. After dissecting all system characteristics, captured by the
standardized data collection protocol, we created a guideline for model traits, which describes
characteristics of the best systems. We selected these traits because we found them to be indispensable
to providing effective service to the broadest number of callers. The following table lists items reviewed,
within the three evaluative categories, and denotes the resulting model traits we determined to be most
critical to system usefulness.

                   Automated Telephone Systems: Items Reviewed and Model Traits
                  Items Reviewed                                            Model System Traits

                  Case-specific information (payment and other)             Provide payment information
   CONTENT




                  Program information (paternity, enforcement, etc.)        Provide comprehensive program information
                  Introductory recorded message

                  Instructions for making payments

                  Instructions for application process
                  Local office contact information

                  Other social service program information
                  Primary system function
   ACCESSIBILIT




                  Attempts to access                                        Accessible on first attempt
                  Hours of operation                                        Operate 24 hours, 7 days a week
                  Toll-free status                                          Provide toll-free access
                  Live representatives and hours available
                  Rotary caller access
                  Spanish language access
                  Access variability (by time and day)
   USABILITY




                  Overall usefulness                                        Rated high in overall usefulness
                  Ease in reaching a live representative                    Direct transfer to live representatives
                  Shortcuts to advance through menus                        Allow repeat callers to skip ahead
                  Option to repeat menus                                    Allow system to repeat menus
                  Use of technical jargon                                   Avoid problematic jargon
                  System instructions                                       Instruct callers on their use
                  Clarity and pace of narration
                  Narrative consistency
                  Wait time between selections
                  Navigation errors
                  Menu sequence




Child Support Enforcement
                                                               __________
Automated Telephone System                                          5                                 OEI-06-00-00460
                                          FINDINGS

          Automated telephone systems play an integral role in how State child support enforcement
          agencies provide customer service. To assess the provision of information and services, we
          directly accessed and reviewed all 69 Statewide automated telephone system that States
          reported operating in August 2001. Based on our guideline of model system traits, we found
          that 14 States have systems that could be considered models of operation. These systems
          provide substantial information, are readily accessible, and easy to use. The 69 systems
          generally provide information about a variety of child support enforcement issues, and 61
          systems allow clients to access case-specific information. Although we found that all systems
          provide useful information, we identify a number of limitations to usefulness, such as recorded
          messages that are too complex and over reliance on live representatives to provide key
          information and services.

OVERVIEW OF STATE SYSTEMS

Forty-nine State child support enforcement agencies use automated telephone
systems to provide customer service

          Forty-nine States, including the District of Columbia, operate at least one State-wide
          automated telephone system, as a means of communicating with clients.
          Of these 49 States:
          <    37 provide substantive information and service through their automated system;
          <     6 use their systems to direct callers to obtain information elsewhere; and
          <     6 	use their systems to provide assistance only to existing clients, by requiring a case
                   number or personal identification number to access their systems.

          Of the two remaining States, one reports to operate an automated system, but we could
          not access it after repeated attempts over several months, and therefore, assume it is not
          available to callers. The other State reports that it provides all telephone service through live
          representatives. Thirteen States operate more than one State-wide automated system.

In 14 model States, callers have superior access to comprehensive and useful
child support enforcement information

          These 14 States exhibit a number of traits that set them apart (see primer on page 5). The
          combination of comprehensive system content, ready accessibility, and high usability, allow
          them to provide customer service effectively and efficiently. In addition to thorough assessment
          of each item in our protocol, reviewers gave a rating of overall usefulness, after pursuing all
          menu options for each. All 14 model States have all of the


Child Support Enforcement
                                                 __________
Automated Telephone System                            6                                  OEI-06-00-00460
          traits we considered critical to identifying automated systems as models, and were also rated
          highly on this broader measure. The 14 States with model child support enforcement
          automated telephone systems are Hawaii, Indiana, Kentucky, Massachusetts, Minnesota,
          North Carolina, North Dakota, New Hampshire, New Jersey, Texas, Utah, Virginia, Vermont,
          and Wisconsin.

          Twenty-six other States have systems which meet most, but not all, of these model system traits
          and were rated highly by reviewers in overall usefulness. The nine remaining States operate
          automated systems that are missing more than two model traits. Reviewers experienced
          difficulty in accessing these systems, found them frustrating to navigate, and reported that they
          typically contained less substantive information than their model counterparts.

  The remainder of the report uses all 69 State-level systems to outline overall system characteristics.



                                     Model system content provides both case-specific payment information
SYSTEM CONTENT -                     and comprehensive program information.


Callers receive case-specific payment information through 61 of the 69 systems;
payment instructions and program overviews are also common

          Case-specific information. Information about individual cases, primarily related to tracking
          child support payments, is available through 61 of the 69 State-wide systems (Table 2).
          Payment information is usually             Table 2: Information provided by automated telephone
          provided in an automated fashion,                     systems

          following client entry of a personal       Topic:                                                Of 69
          identifier.5 Common items offered in                                                            Systems:
          payment menus are the dates of             Case-specific information                               61
          payment receipt and disbursement,          Payment instructions                                    52
          as well as the total amount of any         Program overviews                                       47
          arrearage due. Introductions to                 Instructions for application process               43
          case-specific menus often clarify
                                                          County contact information                         33
          how current the payment information             (telephone, address, etc.)
          is and when the system will next be             Paternity establishment procedures                 27
          updated.6 Eighteen of the 61               Enforcement information (tax intercept)                 25
          systems which give case-specific
                                                     Referrals to related programs                           22
          information rely exclusively on live
                                                     Source: Analysis of 69 systems, Office of Inspector General
          representatives to provide these
          details, having no automated
          information about cases.7

          Payment instructions. Fifty-two systems offer information about how to make payments
          and how the child support enforcement agency processes payments. Wage



Child Support Enforcement
                                                    __________
Automated Telephone System                               7                                    OEI-06-00-00460
          withholding is the most prominent payment-related topic, with 10 systems giving instructions for
          establishing, adjusting, and canceling wage withholding orders. Other instructions outline paying
          by mail or through Electronic Funds Transfer. Menu options may also provide information
          about payment of arrearages and interest policies. Although all 69 systems reviewed are
          primarily intended for child support enforcement clients, 28 systems also target payment-related
          information to employers. For example, employers can provide information about new hires
          and changes in employment through live representatives or voicemail.

          Program overviews. Forty-seven systems provide recorded descriptions of child support
          enforcement services, which are typically brief, but give useful program overviews. These
          automated systems describe child support enforcement agency policies and procedures, and
          outline the stages of the enforcement process: paternity and order establishment, location,
          enforcement, and disbursement. The portion of the enforcement process that is most often
          covered thoroughly (27 systems) is paternity establishment, including information about
          voluntary paternity acknowledgment, and locations for submitting to genetic testing. Potential
          clients can receive varying degrees of information about the application process from 43
          systems, and 33 systems also provide contact information for local child support enforcement
          offices. Other topics appear geared toward management of existing cases, including review
          and adjustment, case closure, and suggestions for pursuing interstate cases or adding medical
          support to an order.

          Referrals to related programs. Twenty-two systems give callers guidance regarding other
          social service programs or court-related services. Social service programs covered by
          automated systems include TANF public assistance programs, family counseling, and
          healthcare services. These systems typically provide contact information for the relevant
          agency, with a few giving more substantive details, such as program descriptions and
          qualifications. Nine systems provide information about issues related to, but outside, the realm
          of the child support enforcement agency, such as referrals for court-related services or job
          training.

          Enforcement information. Systems also provide information about specific enforcement
          tactics, such as tax and insurance intercept initiatives, interstate enforcement procedures,
          passport denial, and reports to credit bureaus. Systems may also be able to provide individual
          information about their use in specific cases. Tax intercept information, covered by 25 States,
          is particularly detailed and includes explanations of related tax code and how intercept is
          handled for joint returns. Systems appear to anticipate calls from noncustodial parents, who
          may only make contact with the child support enforcement agency after these measures have
          been used in their case. For example, some recorded messages explain the legal basis for the
          enforcement measure and provide information for appealing an enforcement action. Other
          topics appear targeted for custodial parents, such as instructions for reporting overpayment,
          delayed payments or lost checks, as well as messages describing how clients might take better




Child Support Enforcement
                                                __________
Automated Telephone System                           8                                OEI-06-00-00460
          advantage of enforcement strategies, such as providing additional information about the
          noncustodial parent.


                                                   Model systems are accessible on the first attempt, operate
SYSTEM ACCESSIBILITY -                             24/7, and provide toll-free service.



Caller access to information is generally good, with 57 systems available 24/7, 49
offering toll-free service, and 57 answering calls on the first attempt

                                                                 Table 3: System accessibility features
          Hours of operation. We found that
          57 of the 69 systems operate 24 hours a          Features:                                  Of 69 Systems:
          day, seven days a week (Table 3).
                                                           24-Hour access
                                  57
          Those not operating around-the-clock
                                                           Access on first attempt
                         57
          are typically limited to business hours,
                                                           Toll-free access
                                49
          approximately 8:00 a.m. - 5:00 p.m.
                                                           Rotary caller access
                            28
          Systems with limited hours often have
          after-hours recorded messages which tell         Spanish language access
                         19

          callers when they should call back for full      Source: Analysis of 69 systems, Office of Inspector General
          service. One system offers more
          extensive automated information after
          business hours, because live representatives provide most of the information during regular
          hours.

          Attempts to access. Fifty-seven of the 69 automated systems answered reviewers’ calls on
          the first attempt. Among the 12 systems that required more than one attempt to reach, six were
          accessed on the second or third attempt, and six required upwards of 10 attempts before our
          calls were answered. When they were not answered, systems typically either return a busy
          signal or continue ringing indefinitely with no response. Two systems play recorded messages
          indicating that because all lines are busy, callers should try again later.

          Toll-free status. Forty-nine systems are accessible toll-free from anywhere in the continental
          United States. Among the 20 systems that are not toll-free, eight have calling areas that cover
          the entire State in which they operate. Twelve systems require a toll call, but one of these
          offers to accept collect calls in its introductory message.

          Rotary caller access. Twenty-eight telephone systems specifically notify callers using a
          rotary telephone that they can choose either a speech-activated menu or a live representative
          for information. However, at least some of the systems that do not mention services for rotary
          callers, nevertheless, appear to route such calls to a live representative, if no menu selection is
          made after several seconds.




Child Support Enforcement
                                                    __________
Automated Telephone System                               9                                       OEI-06-00-00460
Callers to 19 systems can access menus and recorded messages in Spanish; no
other alternative languages are offered

          Spanish is the only language alternative to English offered by automated systems, with 19
          systems providing recorded messages in both languages. Callers to these systems are typically
          offered a choice between Spanish or English, prior to the first menu. The U.S. Census Bureau
          identifies California, New Mexico, New York, and Texas as having the largest proportion of
          adults who speak Spanish but do not speak English well.8 All four of these States offer a
          Spanish language option within their child support enforcement automated telephone system.
          Among the 50 systems that offer information only in English, four indicate in their recordings that
          staff are available to communicate in other languages. However, this service may require calling
          another number or leaving a voicemail message requesting a return call.


                                          Model systems allow callers to make selections and repeat menus
SYSTEM USABILITY -                        before menus end, feature system instructions, avoid problematic
                                          jargon, and directly transfer callers to live representatives.



To ease navigation, callers may select items before menus end and repeat menus,
but systems may not give instructions or alert callers to use these features
                                                           Table 4: System usability features
          Navigational tools and

          instructions. To ease navigation,
               Features:                                  Of 69 Systems:
          systems let callers make selections
         Shortcuts to advance through                        61
          and repeat menus before menus end,
          menus
          but these systems may not give
              Option to repeat menus                              55
          instructions or alert callers to these
      Instructions for system use                         49
          features. Sixty-one systems allow

                                                       Source: Analysis of 69 Systems, Office of Inspector General
          callers to make a menu selection

          without listening to the entire list of

          menu options (Table 4). By using the early selection function, callers can more quickly access

          desired information. However, this option is not always explicitly indicated, so that reviewers

          only discovered the function by attempting to make selections before messages ended. 


          Fifty-five of the 69 systems allow callers to repeat menus, and five of these automatically repeat

          menus when callers delay making a selection. The option to repeat menus helps callers avoid

          making multiple calls to get all the information needed. We found the easiest to use systems

          include information on repeat functions in the introductory message. They also briefly remind

          callers how to use the repeat function at the end of each recorded message, and automatically

          repeat the menu if no selection is made. However, 14 of the 55 systems that have the repeat

          function do not inform callers of the option, and seven other systems only mention their repeat

          function well into menus.




Child Support Enforcement
                                                   __________
Automated Telephone System                             10                                       OEI-06-00-00460
          Forty-nine automated systems offer callers specific instructions for use, as either a part of the
          introductory message or a separate menu item. These instructions are particularly valuable for
          callers unfamiliar with the system, as were our reviewers. They typically inform callers how to
          repeat menus, make selections before the end of a list of options, and return to the main menu.
          However, we found no need for instructions when a system was well-designed and
          straightforward.

Callers encounter clear and well-paced recorded messages in 57 systems, and
only 4 systems use difficult technical language or jargon

          System narration. Recorded voices used by the systems are usually clear and well-paced.
          Using three factors (voice clarity, voice consistency, and pacing), reviewers rated 57 of the 69
          systems easy to understand. When recordings were difficult to decipher, it was typically due to
          inconsistency in narration, computer-generated voices, or rushed delivery. Narrative
          inconsistency, such as voice changes with each menu option, appears to be the result of systems
          incorporating messages recorded at various times. While such inconsistency is not necessarily
          disruptive, it sometimes distracts from the message and appears less professional. Messages
          spoken too quickly also make it difficult for callers to write down information. Pacing is
          particularly important when systems provide contact information, such as local office addresses
          and telephone numbers. To alleviate problems caused by message pacing, a few systems
          automatically repeat referral information.

          Use of technical language. While 47 automated systems use at least some technical terms,
          only four use such language or jargon to a degree that reviewers found problematic, using
          technical terms or jargon frequently without explaining the terms. Examples of more difficult
          terms we encountered include arrearage, obligor, skip trace, and adjudicate, and acronyms not
          in wide use such as EFT (Electronic Funds Transfer). Although usually defined by the narration,
          we also found that systems overall tend to rely heavily on acronyms or abbreviated agency titles,
          such as IV-D, DCSE or ‘Kids First.’ Forty-seven systems use technical terms in some
          capacity, but most terms are defined or further explained.

Forty-eight systems provide callers with the option to talk with a live
representative, and other systems provide voicemail service

          Use of live representatives. Forty-eight systems supplement their automated services with

          the option to speak with a live representative. Of these 48 systems: 

          <    38 offer live service during weekday business hours;

          <    9 offer extended weekday hours; and

          <    1 offers weekday hours plus Saturday service.





Child Support Enforcement
                                                __________
Automated Telephone System                          11                                 OEI-06-00-00460
          When selecting this option, callers are typically connected with customer service specialists or
          child support enforcement caseworkers who either provide callers with information or direct
          them to where they can obtain information. Some systems route calls to representatives by
          topic. Representatives can typically inform callers about recent payments or perform general
          administrative tasks, such as updating a client’s mailing address. Beyond these basic functions,
          the level of personal service varies. Examples of other services include fielding questions
          regarding policies and procedures, case-specific services unrelated to payment, such as
          scheduling an appointment, or adding new information to the case file.

          Reviewers found live representatives fairly easy to reach. Representatives answered
          immediately for 19 of the 48 systems, within three minutes for 25, and exceeded three minutes
          for only four systems. When callers had to wait for a live representative, they were typically on
          hold rather than listening to a continuous telephone ring. Despite generally short wait times,
          reviewers found the live representative option ‘difficult’ to use for seven systems. Problems
          include difficulty finding the option within the menus, persistent busy signals, lost connections,
          and connection to a voice mailbox rather than a live representative.

          Voicemail alternative. Nineteen of the 21 systems that do not offer a live representative
          allow callers to interact with the system by leaving voicemail messages. A common use of
          voicemail is to allow callers to request a change of address or documents, such as case payment
          histories. Another use is to encourage callers to leave voicemail with ‘tip-offs’ about the
          whereabouts or income of a non-paying parent.

LIMITATIONS TO SYSTEM USEFULNESS

          Upon completion of their comprehensive review of each system’s content, accessibility, and
          usability, reviewers gave each an overall rating. They rated 44 systems as ‘easy’ or ‘very easy’
          to use, 18 as ‘neither easy nor difficult’ to use, and seven systems as ‘difficult’ or ‘very difficult’
          to use. Further analysis of the 25 systems that received a neutral or negative overall rating
          revealed limitations to their usefulness for callers. In this section, we identify these limitations and
          contrast less useful systems with model systems.

Problems commonly inhibiting usefulness for callers are systems that are too
complex, are not caller-oriented, and include outdated information

          Overly complex. When systems provide a wide array of options, they may become very
          detailed without enhancing usefulness or properly directing callers to key topics. Reviewers
          found navigating systems frustrating when they are highly detailed but do not provide the
          thorough content and full service expected from such exhaustive systems. These systems tend to
          include vast menu options within which the most critical topics can easily be lost. For example,
          arcane tax code descriptions might be listed within the initial menu, while the payment address is
          provided deep into a second or third tier menu. In



Child Support Enforcement
                                                  __________
Automated Telephone System                            12                                   OEI-06-00-00460
          other cases, numerous menu options seem to promise substantive information, but are really just
          elaborate routing systems for voice mailboxes. This was particularly frustrating when callers had
          screened through several menu layers to get to their topic of interest. Even when the options
          provide substantive information, the recorded messages are often wordy and complicated, such
          as the system which provides citations from State law for each policy issue discussed.

          Model systems provide a large number of recorded messages without added complexity and
          with features which assist caller use. Reviewers identified three strategies that allowed them to
          better absorb and handle the multiple options. One strategy involves systems using screener
          questions in the main menu which lead to menus with more specific options. Another strategy
          involves placing topics likely to be of greatest interest, such as county contact and payment
          information, among the first offered in initial menus. A third strategy provides separate menus for
          custodial and noncustodial parents. These menus often include some of the same information,
          but allow parents to avoid wading through many options that did not apply to them. Equally
          important to all strategies was the use of brief messages in simple, clear language.

          Not user-friendly. When systems were rated difficult to use overall, it was often because their
          features, content, and tone are not conducive to assisting or serving callers. Model systems
          present content from the perspective of offering service to customers, predicting caller needs and
          easing experience with respectful tones and user-friendly features. One ineffective system
          instructs callers to contact their county first, and then sternly admonishes them to “call us only if
          you have a problem.” Sometimes systems include adequate information and features, but
          reviewers felt that using the systems would not be comfortable or reassuring to clients. This was
          caused by a combination of the voices and language used, such as very formal program
          descriptions recorded with a fast-paced and monotone delivery.

          We found other examples of inattentive service. One system requires callers to submit questions
          in writing rather than offering live representative or voicemail options. Another directs callers to
          the telephone book to find contact information for local offices instead of providing the
          information. This lack of direction is especially confusing when recordings refer to the office by
          its acronym, such as DCSE. Another system, referring callers to local offices, disconnects those
          who do not know how to spell their county name, rather than providing a list of counties or a zip
          code directory as other systems do. Sometimes indifference to callers concerned mechanical
          features, such as the complex system that has a time limit of five minutes for the duration of
          telephone calls, or several that disconnect callers for exceeding the number of options a caller is
          allowed. Full voicemail boxes were another service issue, with reviewers finding some full for
          days.

          Ill-suited to new callers. New clients may not find automated systems to be as useful as
          veteran callers, particularly when a telephone call is the first attempt to gain access to services.
          As shown in Table 2, only 43 of 69 automated systems offer specific instructions




Child Support Enforcement
                                                 __________
Automated Telephone System                           13                                  OEI-06-00-00460
          about how to apply for child support enforcement services. Systems lacking information about
          applications sometimes offer messages explaining the various stages of enforcement, but do not
          include simple, clear instructions for the novice client to begin pursuing enforcement.
          Additionally, system mechanics sometimes do not appear to consider new callers. As shown in
          Table 4, only 49 systems offer instructions for navigating menus, and only 55 offer callers the
          option to repeat menus. First-time users in particular might require information to be repeated in
          order to write down telephone numbers, addresses, or additional information.

          So as not to burden repeat callers, one system uses a screening option that separates new from
          existing clients. New callers receive menu options outlining program services and how they
          might apply, while existing clients reach options that focus on case management, such as
          payment and order modification. This allows both types of callers to access useful information
          more quickly, and might also make the system less overwhelming to novices.

          Over-reliance on live representatives. Generally speaking, live representatives contribute
          to system usefulness by allowing clients to gain additional information not provided through
          recordings and automated features. However, reviewers found that too much reliance on live
          representatives to provide information and services limits the overall usefulness of systems. As
          noted, live representatives are available only during certain hours and days, and reviewers
          experienced some wait time on a majority of systems with live service. Additionally, some live
          representatives are tasked only with directing callers to where they can obtain information rather
          than providing the information. Because of these limitations, callers cannot access information
          except during live service hours and must make additional calls to gain any information and
          services that are not automated.

          Model systems tend to respond to all of the most commonly anticipated client inquiries through
          automated functions, making live representatives available primarily for unusual client needs. In
          particular, all model systems make automated access to payment information available around
          the clock. Additionally, model systems provide recorded messages about many child support
          enforcement topics. It makes them not only more available than live information, and it also
          helps to insure that all callers hear the same information on any given topic. In addition to being
          more useful to clients, the Federal Performance Review suggests that automated information is a
          cost-effective means of providing customer service.

          Inaccurate or outdated information. Reviewers encountered information that was
          inaccurate or had not been updated recently. For example, five systems provided telephone
          numbers for local child support enforcement offices that we found to be either wrong or
          disconnected. Callers seeking these local office telephone numbers would have to obtain them
          elsewhere. One system referred to the long-defunct Assistance for Families with Dependent
          Children (AFDC) program which had been replaced by the Temporary Assistance for Needy
          Families (TANF) program at least four years prior to our data collection. While such outdated
          information is not inaccurate, reviewers found it tended to



Child Support Enforcement
                                                __________
Automated Telephone System                          14                                 OEI-06-00-00460
          slow the flow of recorded messages and created questions about whether more critical
          information, such as payment data, would be current. Model systems update frequently,
          notifying clients of recent events or policy changes that might affect their cases or payment
          processing. Model systems also appear to update at least their introductory messages almost
          daily and inform callers about the timing of the last automated update.




Child Support Enforcement
                                               __________
Automated Telephone System                         15                               OEI-06-00-00460
                      SUGGESTIONS FOR IMPROVEMENT

CONCLUSION

          Our analysis of model child support enforcement automated telephone systems identifies key
          content and features employed by the most useful systems. These traits, including
          comprehensive content, ready accessibility, and usability features, combine to create systems
          which are helpful to both novice and experienced callers. In terms of system content and
          information, we found that it is critical for systems to provide clear and quick access to the most
          important topic areas, such as case-specific payment information. Among features of
          accessibility and usability, we found that automating key topic areas and providing basic
          navigational tools are highly important to improving caller experiences. While all systems
          provide valuable information, we found limitations to their usefulness. Following review of both
          model and less effective systems, we developed a number of suggestions for improving
          automated telephone systems and enhancing service to callers.

SUGGESTIONS FOR IMPROVEMENT

          To improve the content, accessibility, and usability of State child support enforcement automated
          telephone systems, we suggest that the Administration for Children and Families (ACF) provide
          technical assistance to help States enhance their systems. The traits listed in the primer on page
          5 could serve as a model for basic system features, and could be promoted to States by listing
          them on the ACF website. In carrying out these suggestions, particular emphasis should be
          placed on improving operations in the nine States identified as using poor automated systems.

          <	        Focus on key topic areas. Assist States in simplifying their automated telephone
                    systems, both in content and function, to help them emulate the model States. Without
                    sacrificing comprehensive content on a variety of program components, service should
                    focus primarily on key areas, such as payment and case initiation. The most useful
                    systems contain substantive information, but in a streamlined fashion. The information
                    provided focuses on key, critical issues by making select information on such things as
                    payment immediately accessible and allotting space deeper in the menus for information
                    that is less likely to be of value to all callers.

          <	        Make systems more user-friendly. Assist States in developing automated
                    telephone systems that focus on service to parents, are available around the clock, and
                    provide features to improve caller experiences. This would likely involve technical
                    assistance to States targeted at creating systems that include useful navigational tools and
                    mechanical features. Consideration should also be given to conveying information to
                    parents in a respectful and courteous tone.



Child Support Enforcement
                                                  __________
Automated Telephone System                            16                                 OEI-06-00-00460
          <	        Target first-time callers. Foster State efforts to include messages, features and
                    content specifically targeted to first-time callers and those not familiar with child support
                    enforcement procedures. These might include instructions to apply for enforcement
                    services, more comprehensive descriptions of program services, and detailed county
                    office contact information. Callers might benefit further from the provision of a separate
                    menu built specifically for new or prospective clients.

          <	        Automate functions when possible. Encourage States to automate all key
                    information and services, particularly case-specific payment information. Although the
                    provision of live representatives gives clients a choice about how to interact, these
                    representatives are not always available. Systems should attempt to answer basic caller
                    questions through recorded messages and automated interaction, reserving live
                    representatives for unique inquiries.

          <	        Update information frequently. Encourage States to develop ways to keep
                    information available on automated systems accurate and current. Most critical is the
                    accuracy of further contact information, such as county office addresses and telephone
                    numbers. Attention should also be paid to temporary, time-sensitive messages included
                    within the introduction and subsequent menus, as well as policy and program information
                    relevant to clients.



AGENCY COMMENTS

ACF concurs with the findings and suggestions for improvement included in our report. Additionally,
ACF plans to publicize the traits of model automated telephone systems on their agency website. ACF
also indicates that it will target the nine States rated poorly in our report for further review and technical
assistance. In commenting on our report, ACF outlines details of web-based training that it is currently
offering to State child support enforcement agencies. These efforts appear to address many of the
limitations to achieve effective customer service that we identify for automated telephone systems. As
our report indicates, similar technical assistance could be of value in improving automated telephone
systems.




Child Support Enforcement
                                                   __________
Automated Telephone System                             17                                  OEI-06-00-00460
                                               ENDNOTES


1.        Government Performance and Results Act, Pub. L. 103-62, August, 1993.

2.	       Office of Child Support Enforcement, Administration for Children and Families, U.S.
          Department of Health and Human Services, Child Support Enforcement Strategic Plan.
          Washington, D.C., February 1996.

3.        Ibid, page 4.

4.	       Federal Benchmarking Consortium. Putting Customers First Serving the American
          Public: Best Practices In Telephone Service, Washington, D.C., National Performance
          Review, February 1995.

5.	       Typically, these unique identifiers were any one or a combination of a client’s Social Security
          number, case number, or personal identification number (PIN). A few systems require multiple
          identifiers, using numbers, such as the dependent’s date of birth.

6.	       In all cases that designated how current the payment information is, the date was the last
          business day prior to our call.

7.	       These staff, as well as live representatives available through more fully-automated systems, can
          typically also provide case-specific information not related to payments, such as court hearing
          dates.

8.	       The Census 2000 Supplementary Survey, Table 3035: Age by Language Spoken at Home by
          Ability to Speak English, U.S. Census Bureau, Washington, D.C., 2001.




Child Support Enforcement
                                                __________
Automated Telephone System                          18                                OEI-06-00-00460
Child Support Enforcement

                             __________
Automated Telephone System       19       OEI-06-00-00460

COMMENTS OF THE ADMINISTRATION FOR CHILDREN AND FAMILIES ON THE OFFICE OF THE INSPECTOR
GENERAL (OIG) DRAFT REPORT: “STATEWIDE CHILD SUPPORT ENFORCEMENT AUTOMATED TELEPHONE
SYSTEMS: (OEI-06-00-00460)

General Comments

The Administration for Children and Families appreciates the opportunity to comment on this draft report, which
addresses the use of technology to support exemplary customer service. The Office of Child Support Enforcement
(OCSE) has been working closely with the OIG on this effort. OCSE and OIG were panelists at the National Child
Support Enforcement Association annual meeting in New Orleans in August 2002 discussing the need for improving
customer service and increasing the use of automation to serve child support clients.

ACF Response

OIG presents five (5) opportunities for improvement. Our response addresses the opportunities as a group rather
than individually. The reason for taking this approach is that the OIG's report focuses on the use of voice response
units to provide 24/7 access to child support clients and OCSE is currently focusing efforts on encouraging states to
provide 24/7 access to child support customers via the internet. The technologies differ while the goals are shared.
OCSE proposes to support these goals by providing a web-based customer service training course which will address
several of the OIG recommendations including making systems more user-friendly, automating functions when
possible and updating information frequently.

While OCSE’s focus is on a customer service web initiative, OCSE is also planning to conduct level of automation
reviews for states. The nine states identified in the OIG report could be targeted for assistance by the OCSE staff
during our automation summits and level of automation reviews. OCSE also has a best practices compendium and
searchable web site, where we can publicize the best practices identified in this OIG report.

Here are the details of our web-based training curriculum. In FY 2002, OCSE contracted with State Information
Technology Consortium (SITC) to develop training and provide 2-day training sessions on customer service web
development. This course will showcase best practices and lessons learned from states and provide information for
participants in defining, building, and operating a child support enforcement (CSE) web-based customer service
system in states or territories. The training will be delivered five (5) times over the course of September 2002 – March
2003. At the end of this course, participants will be able to create a high-level system description, tailored for each
participant’s state or territory, including information on some or all of the following system life cycle areas, as
appropriate:

               •	   Analysis implications, including functions and features, and locations for use of a CSE customer
                    service website;

               •	   Design implications, such as existing technical architecture, portals, other agency websites, data
                    confidentiality and access controls, security and privacy, and system reliability considerations;

               •	   Development implications, such as development platforms, testing procedures, multiple languages,
                    and the degree of automation of interactive information;

               •	   Implementation implications, such as training, piloting, promotion and publicity, and client
                    awareness;

               •    Operations implications, such as ongoing maintenance and enhancement; and

               •     Management implications, such as tangible benefits, cost estimates, risk management, and lessons
                     learned.
Participants will receive relevant information and documentation collected from other states and a contact list of
Federal and state personnel who can assist after the course ends. Participants will also leave the course with a “to


Child Support Enforcement
                                                         __________
Automated Telephone System                                   20                                           OEI-06-00-00460
do” list of three to five specific actions they can take after training to facilitate progress in their agencies toward
initiating or enhancing a web-based CSE customer service system.

The courses were announced in Dear Colleague Letter-02-16, dated July 8, 2002. Here is the delivery schedule:

•    September 23-25, 2002 in Arlington, VA
•    November 14-15, 2002 in New York City;
•    January 13-14, 2003 in Dallas;
•    February 25-26, 2003 in Atlanta; and
•    March 25-26, in Seattle.




Child Support Enforcement
                                                            __________
Automated Telephone System                                      21                                             OEI-06-00-00460
                             ACKNOWLEDGMENTS

This report was prepared under the direction of Judith V. Tyler, Regional Inspector General for
Evaluation and Inspections in Region VI. Other principal Office of Evaluation and Inspections staff who
contributed include:

Ruth Ann Dorrill, Team Leader                                  Linda Hall, Program Specialist

A. Blaine Collins, Program Analyst                             Joan Richardson, Program Specialist

Deborah McGurk, Program Analyst
Clark Thomas, Program Analyst
Scott Whitaker, Program Analyst
Lisa White, Administrative Officer




Child Support Enforcement
                                             __________
Automated Telephone System                       22                               OEI-06-00-00460
